No. _________
IN THE SUPREME COURT OF THE UNITED STATES

GREGORY WIND,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

PETITION FOR A WRIT OF CERTIORARI
APPENDIX

INDEX TO APPENDICES
Appendix A Judgment and Opinion of Fifth Circuit
Appendix B Judgment and Sentence of the United States District Court for the
Northern District of Texas

APPENDIX A

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 19-10613
Summary Calendar

FILED
March 18, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.
GREGORY WIND,
Defendant-Appellant
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:18-CR-302-1
Before KING, GRAVES, and WILLETT, Circuit Judges.
PER CURIAM: *
Gregory Wind appeals the 60-month, above-guidelines range sentence he
received upon pleading guilty to using a false document. Wind contends that
(1) his sentence is procedurally unreasonable because the district court failed
to adequately explain its reasons for departing upward and failed to consider
his arguments for a downward departure, and (2) his sentence is substantively
unreasonable. We affirm.

Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
CIR. R. 47.5.4.
*

No. 19-10613
Because Wind “did not object to the district court’s failure to explain the
sentence . . . , plain error review applies.” United States v. Garcia-Bahena, 402
F. App'x 926, 927 (5th Cir. 2010) (citing United States v. Mondragon-Santiago,
564 F.3d 357, 361 (5th Cir. 2009); see also Mondragon-Santiago, 564 F.3d. at
361 (“When a defendant fails to raise a procedural objection below, appellate
review is for plain error only.”). The court recited in detail Wind’s extensive
criminal history, which includes multiple fraud and theft convictions; adopted
the unobjected-to presentence report, which noted that Wind’s undercounted
criminal history might support a nonguidelines sentence; listened to defense
counsel’s and Wind’s arguments for a downward departure; and explained at
length why a 60-month sentence adequately addressed the relevant 18 U.S.C.
§ 3553(a) factors. By imposing a sentence above the guidelines range, the court
implicitly found Wind’s arguments for leniency unpersuasive. See Rita v.
United States, 551 U.S. 338, 358 (2007). We are satisfied that the district court
considered the parties’ arguments and had a reasoned basis for exercising its
sentencing authority. See id. at 356. And the record “makes clear both the
reasons for the sentence and their adequacy as a matter of law.” United States
v. Bonilla, 524 F.3d 647, 659 (5th Cir. 2008).
Next, we review Wind’s claim that his sentence is substantively
unreasonable for an abuse of discretion. United States v. Key, 599 F.3d 469,
475 (5th Cir. 2010). Wind’s 60-month sentence is substantively reasonable.
See Gall v. United States, 552 U.S. 38, 46, 51 (2007). Contrary to Wind’s
assertion, the district court took his arguments for a downward departure into
account but simply found them unavailing. That Wind disagrees with the
court’s balancing of the § 3553(a) factors is not grounds for vacating his aboveguidelines sentence. See United States v. Malone, 828 F.3d 331, 342 (5th Cir.
2016).

2

No. 19-10613
The judgment is AFFIRMED.

3

APPENDIX B

U.S. DISTRICT COURT
NORTIIERN DISTRICT OF TEXAS

Case 4:18-cr-00302-A Document 40 Filed 05/26/19

Page 1 of 5 PageID
111
FILED

min:iteb ~tate~ lli~ttfct Qtour

MAY 2 6 20.19

Northern District of Texas
Fort Worth Division
CLERK, U.S. DISTRICT COURT

UNITED STATES OF AMERICA

§

V.

§

GREGORY WIND

§

lly--.,b"'cr"'ut~y- - -

Case Number: 4:18-CR-302-A(01)

JUDGMENT IN A CRIMINAL CASE
The government was represented by Assistant United States Attorney Douglas A. Allen.
The defendant, GREGORY WIND, was represented by Federal Public Defender through Assistant
Federal Public Defender Taylor Wills Edwards Brown.
The defendant pleaded guilty on February 8, 2019 to the one count Indictment filed on
December 12, 2018. Accordingly, the court ORDERS that the defendant be, and is hereby,
adjudged guilty of such count involving the following offense:
Date Offense Concluded
12/3/2018

Title & Section I Nature of Offense
18 U.S. C.§ IOO!(a)(3) Use of a False Document

Count
I

As pronounced and imposed on May 24, 2019, the defendant is sentenced as provided in
this judgment.
The court ORDERS that the defendant immediately pay to the United States, through the
Clerk of this Court, a special assessment of $100.00.
The court further ORDERS that the defendant shall notify the United States Attorney for
this district within 30 days of any change of name, residence address, or mailing address, as set
forth below, until all fines, restitution, costs, and special assessments imposed by this Judgment
are fully paid. If ordered to pay restitution, the defendant shall notify the court, through the clerk
of this court, and the Attorney General, through the United States Attorney for this district, of
any material change in the defendant's economic circumstances.
IMPRISONMENT
The court further ORDERS that the defendant be, and is hereby, committed to the
custody of the United States Bureau of Prisons to be imprisoned for a term of60 months. This
sentence shall run consecutively to any sentences imposed in the pending probation revocations
in Case No. CR06004414-01 in York County General District Court in Yorktown, Virginia; Case
No. CR6015341-03 in Williamsburg General Court in Williamsburg, Virginia; Case No.
CR09000608-00 in Hampton Circuit Court in Hampton Virginia; and Case No. 57032-05 in
Circuit Court for the City of Newport News in Newport News, Virginia, and consecutively to
any sentence imposed in Case No. F1266293, in the First Parish of Jefferson County, Louisiana.

1

Case 4:18-cr-00302-A Document 40 Filed 05/26/19

Page 2 of 5 PageID 112

The defendant is ordered into the custody of the United States Marshal.

SUPERVISED RELEASE
The court further ORDERS that, upon release from imprisomnent, the defendant shall be
on supervised release for a term of three (3) years and that while on supervised release, the
defendant shall comply with the standard conditions ordered by this Court and shall comply with
the following additional conditions:
I.

The defendant shall not commit another federal, state, or local crime.

2.

The defendant shall not unlawfully possess a controlled substance.

3.

The defendant shall cooperate in the collection of DNA as directed by the U.S. Probation
Officer, as authorized by the Justice for All Act of2004.

4.

The defendant shall refrain from any unlawful use of a controlled substance, submitting
to one drug test within 15 days of release from imprisomnent and at least two periodic
drug tests thereafter, as directed by the probation officer pursuant to the mandatory drug
testing provision of the 1994 crime bill.

5.

If, upon commencement of the term of supervised release, any part of the $58,003
restitution ordered by this judgment remains unpaid, the defendant shall make payments
on such unpaid amount at the rate of at least $50 per month, the first such payment to be
made no later than 60 days after the defendant's release from confinement and another
payment to be made on the same day of each month thereafter until the restitution amount
is paid in full. Any unpaid balance of the restitution ordered by this judgment shall be
paid in full60 days prior to the termination of the term of supervised release.

6.

The defendant shall provide to the probation officer complete access to all business and
personal financial information.

7.

The defendant shall abstain from the use of alcohol and all other intoxicants during the
term of supervision.

8.

The defendant shall participate in a program approved by the probation officer for
treatment of narcotic or drug or alcohol dependency that will include testing for the
detection of substance use, abstaining from the use of alcohol and all other intoxicants
during and after completion of treatment, contributing to the costs of services rendered at
the rate of at least $25 per month.

9.

The defendant shall participate in mental health treatment services as directed by the
probation officer until successfully discharged, which services may include prescribed
medications by a licensed physician, with the defendant contributing to the costs of
services rendered at a rate of at least $25 per month.

10.

The defendant shall also comply with the Standard Conditions of Supervision as
hereinafter set forth.
2

Case 4:18-cr-00302-A Document 40 Filed 05/26/19

Page 3 of 5 PageID 113

Standard Conditions of Supervision
1.

The defendant shall report in person to the probation office in the district to which the
defendant is released within seventy-two (72) hours of release from the custody of the
Bureau of Prisons.

2.

The defendant shall not possess a firearm, destructive device, or other dangerous weapon.

3.

The defendant shall provide to the U.S. Probation Officer any requested financial
information.

4.

The defendant shall not leave the judicial district where the defendant is being supervised
without the permission of the Court or U.S. Probation Officer.

5.

The defendant shall report to the U.S. Probation Of±ker as directed by the court or U.S.
Probation Officer and shall submit a truthful and complete written report within the first
five (5) days of each month.

6.

The defendant shall answer truthfully all inquiries by the U.S. Probation Officer and
follow the instructions of the U.S. Probation Officer.

7.

The defendant shall support his dependents and meet other family responsibilities.

8.

The defendant shall work regularly at a lawful occupation unless excused by the U.S.
Probation Officer for schooling, training, or other acceptable reasons.

9.

The defendant shall notify the probation officer at least ten (10) days prior to any change
in residence or employment.

10.

The defendant shall refrain from excessive use of alcohol and shall not purchase, possess,
use, distribute, or administer any narcotic or other controlled substance, or any
paraphernalia related to such substan9es, except as prescribed by a physician.

11.

The defendant shall not frequent places where controlled substances are illegally sold,
used, distributed, or administered.

12.

The defendant shall not associate with any persons engaged in criminal activity, and shall
not associate with any person convicted of a felony unless granted permission to do so by
the U.S. Probation Officer.

13.

The defendant shall permit a probation officer to visit him at any time at home or
elsewhere and shall permit confiscation of any contraband observed in plain view by the
U.S. Probation Officer.

14.

The defendant shall notify the probation officer within seventy-two (72) hours of being
atTested or questioned by a law enforcement officer.

15.

The defendant shall not enter into any agreement to act as an informer or a special agent
of a law enforcement agency without the permission of the court.
3

Case 4:18-cr-00302-A Document 40 Filed 05/26/19
16.

Page 4 of 5 PageID 114

As directed by the probation officer, the defendant shall notify third parties of risks that
may be occasioned by the defendant's criminal record or personal history or
characteristics, and shall permit the probation officer to make such notifications and to
confirm the defendant's compliance with such notification requirement.

The court hereby directs the probation officer to provide defendant with a written
statement that sets forth all the conditions to which the term of supervised release is subject, as
contemplated and required by 18 U.S.C. § 3583(f).

The court did not order a fine because the defendant does not have the financial resource
or future earning capacity to pay a fine.

RESTITUTION
The court further ORDERS defendant shall make full restitution, in the amount of
$58,003. Restitution is payable immediately, but non-payment will not be a violation of
defendant's conditions of supervised release so long as defendant pays as provided in defendant's
conditions of supervised release. All restitution payments shall be made by defendant to the
Clerk of the U.S. District Court, 501 West 1Oth Street, Room 310, Fort Worth, Texas 76102, for
disbursement to the victim whose name and Joss amount are listed below:
Department of Veteran Affairs
AR Section, Fiscal Service TT-47
PO BOX 398676
Dallas, Texas 75339
Re: Wind- 0116

STATEMENT OF REASONS
The "Statement of Reasons" and personal information about the defendant are set forth
on the attachment to this judgment.
(,

Signed this the 2~h day of May, 2019.

Case 4:18-cr-00302-A Document 40 Filed 05/26/19

Page 5 of 5 PageID 115

RETURN
I have executed the imprisonment part of this Judgment as follows:

Defendant delivered on _ _ _ _ _ _ _, 2019 to ---,----,------,-----,--::--c--:--at - - - - - - - - - - - - - - - - - - - ' w i t h a certified copy of this Judgment.

United States Marshal for the
Northern District of Texas

By~--~~~--~~~----------­
Deputy United States Marshal

5

